20 7504
No.

OFFICE OF THE CLERK
SUPREME COURT i' s

In the

Supreme Court of the United States
RAY A. GOUGH,
Petitioner
v.

DANIEL Q. SULLIVAN, Warden
Respondent.
On Petition for a Writ of Certiorari to the
United States Court of Appeals
For the Seventh Circuit

PETITION FOR WRIT OF CERTIORARI

RAY A. GOUGH R00646
BMRCC l-B-51
251 North Illinois Highway 37
Ina, IL 62846
Petitioner Pro Se

3b

. 2020

FILED
OCT 27 2020

QUESTIONS PRESENTED
(1) Whether proceedings under the Illinois Sexually Dangerous
Persons Act, which may result in incarceration for an indeterminate and
possibly lifelong term, are “criminal prosecutions”, within the meaning of
the Sixth Amendment’s guarantee of a speedy trial.
(2) Whether, in a habeas corpus proceeding under 28 U.S.C. §2254,
the requirement of a Supreme Court precedent incorporated in §2254(d)(l)
for decisions contrary to clearly established Federal law, applies likewise to
§2254(d)(2) for decisions based on an unreasonable determination of the
facts, despite the clear language of the statute to the contrary.

l.

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTIONAL STATEMENT

1

STATUTORY PROVISIONS INVOLVED

1

STATEMENT OF THE CASE

2

REASONS FOR GRANTING THE WRIT

3

I.

This Court should grant the petition to make clear that defendants
prosecuted under purported civil statutes, such as the Illinois Sexually
Dangerous Persons Act, which may, upon conviction, result in an
indefinite period of incarceration, have a right to a speedy trial under
the Sixth Amendment, either directly or under the due process clause
of the Fourteenth Amendment.

H.

This Court should grant the petition to make clear that, in habeas
corpus proceedings brought under 28 U.S.C. §2254, the requirement of
a prior Supreme Court precedent contained in §2254(d)(l), for
decisions contrary to established Federal law, does not apply to §2254
(d)(2), for decisions based on an unreasonable determination of the
facts.

CONCLUSION

10

PROOF OF SERVICE

11

u.

INDEX TO APPENDICES
Appendix A
Order of the United States Court of Appeals for the Seventh Circuit,
No. 20-1088 (September 14,2020)...................................................... la
Appendix B
Judgment in a Civil Case and Memorandum and Order of the United
States District Court for the Southern District of Illinois,
No. 17-cv-247 SMY (December 17,2019)............................................ 2a

m.

TABLE OF AUTHORITIES
Constitutional Provisions
U.S. CONST. Amend. VI

1

U.S. CONST, amend. XIV.

1

Statutes
28 U.S.C. §2253(c)

3

28 U.S.C. §2254(d)

5

Illinois Sexually Dangerous Persons Act, 725ILCS 205/0.01 etseq.

3

Cases
Allen v. Illinois, 478 U.S. 364 (1986)

6

Barker v. Wingo, 407 U.S. 514 (1972)

5

Faretta v. California, 422 U.S. 806 (1975)

8

In re Detention ofHughes, 346 Ill. App. 3d 637 (2004)

,8

iv.

PETITION FOR WRIT OF CERTIORARI
Petitioner Ray A. Gough respectfully prays that a writ of certiorari
issue to review the order of the United States Court of Appeals for the
Seventh Circuit, entered September 14,2020, in Gough v. Sullivan, No.
20-1088, denying his request for a certificate of appealability from the
judgment of the United States District Court for the Southern District of
Illinois, and denying his request for the appointment of counsel.
OPINIONS BELOW
The order of the panel, consisting of Judges Wood and Scudder, of the
United States Court of Appeals for the Seventh Circuit, appears at Appendix
A to the petition, and is unpublished. The judgment and memorandum and
order of the United States District Court appears at Appendix B to the
petition and is unpublished.
JURISDICTIONAL STATEMENT
The Court of Appeals entered its order on September 14, 2020. No
petition for rehearing or for rehearing en banc was filed. The jurisdiction of
this Court is invoked under 28 U.S.C. §1254(1).
STATUTORY PROVISIONS INVOLVED
U.S. CONST, amend VI
“In all criminal prosecutions, the accused shall enjoy the right to a
speedy and public trial....”
U.S. CONST, amend. XIV
“...nor shall any person...be deprived of life, liberty, or property,
without due process of law..
1

28 U.S.C. §2254(d)
An application for a writ of habeas corpus on behalf of a person in
custody pursuant to the judgment of a State court shall not be granted with
respect to any claim that was adjudicated on the merits in State court
proceedings unless the adjudication of the claim(1) resulted in a decision that was contrary to, or involved an
unreasonable application of, clearly established Federal law, as
determined by the Supreme Court of the United States; or
(2) resulted in a decision that was based on an unreasonable
determination of the facts in light of the evidence presented in the
State court proceeding.
28 U.S.C. §2253(c)
(1) Unless a circuit justice or judge issues a certificate of appealability, an
appeal may not be taken to the court of appeals from(A) the final order in a habeas corpus proceeding in which the
detention complained of arises out of process issued by a State
court....
(2) A certificate of appealability may issue under paragraph (1) only if
the applicant has made a substantial showing of the denial of a
constitutional right.
STATEMENT OF THE CASE
This petition arises from the order of the court of appeals entered
2

September 14,2020, denying petitioner’s request for a certificate of
appealability from the district court’s judgment entered December 17,2019,
dismissing petitioner’s habeas corpus petition and denying his request for a
certificate of appealability.
Mr. Gough’s habeas corpus petition had been filed following his State
court adjudication as a sexually dangerous person under the Illinois
Sexually Dangerous Persons Act,725ILCS 205/0.01 etseq., and the
exhaustion of his appeals in State court. The habeas corpus petition alleged
that Mr. Gough’s Sixth Amendment right to a speedy trial had been violated
in the State court proceedings by a ten-year delay in bringing him to trial,
and by a decision that was based on an unreasonable determination of the
facts in light of the evidence presented.
The district court dismissed the habeas corpus petition, and both the
district court and the court of appeals denied Mr. Gough’s requests for a
certificate of appealability, upon a finding that there had been no substantial
showing of the denial of a constitutional right, pursuant to 28 U.S.C.
§2253(c)(2).
The district court’s jurisdiction was based upon 28 U.S.C. §2241 and
§2254. The court of appeals’jurisdiction was based upon 28 U.S.C. §1291.
REASONS FOR GRANTING THE WRIT
Neither the court of appeals nor the district court examined the merits
of Mr. Gough’s claims. Rather, the finding that Mr. Gough’s constitutional
rights had not been violated was based on the absence of a Supreme Court
3

precedent holding that persons prosecuted under purported civil
commitment statutes such as the Illinois Sexually Dangerous Persons Act
(the “Act”), have a Sixth Amendment right to a speedy trial.
The evidence related to Mr. Gough’s speedy trial claims was largely
undisputed. In 2000, Mr. Gough was found to be a sexually dangerous
person under the Act, following a jury trial in the Circuit Court for the
Fifteenth Judicial Circuit, Ogle County, IUinpis. On appeal, the case was
remanded in March of 2004. More than ten years later, after another jury
trial, Mr. Gough was again found to be a sexually dangerous person in
November of 2014. During the entire ten-year period after remand, Mr.
Gough was incarcerated in the Ogle County jail.
Mr. Gough appealed, arguing inter alia that his right to a speedy trial
had been violated, primarily because much of the 10-year delay in bringing
him to trial resulted from the trial court’s refusal to allow Mr. Gough to
represent himself, and Mr. Gough’s dissatisfaction with his court-appointed
attorneys. It was undisputed that Mr. Gough had made numerous
unequivocal requests, and had filed multiple motions, seeking to represent
himself over a period of three years until finally being allowed to do so, and
that Mr. Gough was never found to be incompetent to waive his right to
counsel, or to have forfeited his right to represent himself by his conduct.
The Illinois Appellate Court affirmed, basing its analysis on Barker v.
Wingo, 407 U.S. 514 (1972), made applicable to the State court proceedings
by the due process clause of the Fourteenth Amendment, In re Detention of
Hughes, 346 Ill. App. 3d 637, 646 (2004), and finding that
4

the trial court’s refusal to allow Mr. Gough to represent himself for three
years should be charged to Mr. Gough rather than the State because the
court’s decision was “informed” by Mr. Gough’s mental capacity and
obstructionist conduct, despite the absence of any such findings by the trial
court. The Illinois Supreme Court denied Mr. Gough’s petition for leave to
appeal.
Having exhausted his State court appeals, Mr. Gough filed his habeas
corpus petition in the United States District Court for the Southern District
of Illinois, pursuant to 28 U.S.C. §2254(d). That section provides for relief if
the State Court adjudication “(1) resulted in a decision that was contrary to,
or involved an unreasonable application of, clearly established Federal law,
as determined by the Supreme Court of the United States; or (2) resulted in
a decision that was based on an unreasonable determination of the facts in
light of the evidence presented in the State court proceedings.”
Mr. Gough sought relief under both subsections of §2254(d). He
alleged that the ten-year delay before his retrial violated his Sixth
Amendment right to a speedy trial under Barker v. Wingo, 407 U.S. 514
(1972), either directly or under the due process clause of the Fourteenth
Amendment. He also alleged that the State court’s decision, in particular its
finding that the three-year delay during which Mr. Gough was denied his
right to represent himself should be charged to Mr. Gough rather than the
State, was based on an unreasonable determination of the facts in light of
the evidence (mostly undisputed) presented in the State court proceedings.
5

The district court denied Mr. Gough’s petition without reaching the
merits of either of his claims, because the Act had been held to be a civil
rather than a criminal proceeding in Allen v. Illinois, 478 U.S. 364 (1986), for
purposes of the Fifth Amendment guarantee against compulsory
self-incrimination, and this Court has never held that the Sixth Amendment
applies to civil commitment proceedings. The district court held that in the
absence of such a Supreme Court precedent, Mr. Gough would not be
entitled to habeas relief under either subsection of §2254, and therefore
declined to issue a certificate of appealability.
The court of appeals likewise declined to issue a certificate of
appealability, finding that there had been no substantial showing of the
denial of a constitutional right, pursuant to 28 U.S.C. §2253(c)(2).
This case provides an appropriate vehicle for this court to address two
important issues of Federal law: (1) whether the Sixth Amendment right to a
speedy trial applies to defendants charged under purported civil statutes,
such as the Illinois Sexually Dangerous Persons Act, which may, upon
conviction, result in an indefinite period of incarceration; and (2) whether,
in habeas corpus proceedings brought under 28 U.S.C. §2254, the
requirement of a prior Supreme Court precedent contained in §2254(d)(l),
for decisions contraiy to established Federal law, applies also to §2254(d)(2)
for decisions based on an unreasonable determination of the facts.
/•'

.• ^

6
/ /• •

.

^ ,

■

■/

L This Court should grant the writ to determine whether persons
charged under civil commitment statutes such as the IUmois Sexually
Dangerous Persons Act, which, upon conviction, may result in an indefinite
and potentially lifelong incarceration in prison, are entitled to a speedy trial
under the Sixth Amendment
In Allen v. Illinois, 478 U.S. 364 (1986), this Court held that
proceedings under the Illinois Sexually Dangerous Persons Act (“Act”) were
not “criminal” within the meaning of the Fifth Amendment’s guarantee
against compulsory self-incrimination in “criminal cases”. Id., at 375.
Similarly, the Sixth Amendment speedy trial right applies in “criminal
prosecutions”. However, there is a crucial difference between application of
the Sixth Amendment right to a speedy trial, and the Fifth Amendment
privilege against self-incrimination.
As pointed out in Allen, the State’s purported goal in the Act is
treatment, not punishment, and the requirement to give evidence that may
be incriminatory could be understood as enhancing the reliability of expert
testimony related to the defendant’s need for such treatment Id., at 374-375.
Nothing similar can be said concerning the period of pretrial incarceration.
Any treatment that might be provided to a defendant charged under the Act
would occur only after conviction, not during the period between charging
and trial, and holding the defendant in custody in the county jail for an
extended period would in no way enhance the purported goal of the Act. In
7

Mr. Gough’s case, that meant incarceration in the Ogle County Jail for an
extraordinarily long time before being afforded the right to a trial and, if
convicted, the benefits of the treatment which is the purported goal of the
Act.
Allen was decided by a 5-4 vote, and much of the discussion in both
the majority opinion by Chief Justice Rehnquist and the dissenting opinion
by Justice Stevens centered on the close connection between criminal
procedures and procedures under the Act, as well as the prospect of an
indeterminate sentence. This court should grant the writ to make clear that
defendants under purported civil statutes such as the Act, which bear such a
close resemblance to criminal prosecutions, and which may result in
lifelong incarceration, are entitled to the protection of the Sixth
Amendment, including the right to a speedy trial, and that Allen does not
compel a contrary conclusion.
Further, the State appellate court recognized that this Court’s speedy
trial jurisprudence, particularly Barker v. Wingo, applies to proceedings
under the Act, by virtue of the due process clause of the Fourteenth
Amendment. In re Detention ofHughes, 346 Ill. App. 3d 637, 646 (2004).
However, the appellate court then misapplied Barker as well as this court’s
decision in Faretta v. California, 422 U.S. 806 (1975) when it attributed to
Mr. Gough delays resulting from the trial court’s refusal to allow Mr. Gough
to represent himself over a period of three years, although he had never
been found to be incompetent to waive his right to counsel, nor had his
behavior ever been found to have resulted in a forfeiture of his
8

right to represent himself.
This court should grant the writ to make clear that the Sixth
Amendment right to a speedy trial, whether applied directly to proceedings
under the Act or by reason of the due process clause of the Fourteenth
Amendment, requires also that this court’s decisions be applied correctly.
XL This court should grant the writ to clarify whether the requirement
of a Supreme Court precedent under 28 U.S.C. §2254(d)(l) for decisions
contrary to clearly established Federal law, applies likewise to §2254(d)(2)
for decisions based on an unreasonable determination of liie facts.
Section 2254 differentiates between two alternative bases for granting
an application for habeas corpus on behalf of a person in custody pursuant
to the judgment of a State court. Subsection (d)(1) authorizes relief in the
case of “a decision that was contrary to, or involved an unreasonable
application of, clearly established Federal law, as determined by the
Supreme Court of the United States”. Subsection (d)(2) authorizes relief in
the case of “a decision that was based on an unreasonable determination of
the facts in light of the evidence presented in the State court proceeding.”
The two subsections are separated by the word “or”, and are therefore
plainly alternative bases for relief.
Mr. Gough sought relief under both sections, alleging a violation of his
right to a speedy trial under the Sixth Amendment, and also alleging that the
State appellate court decision was based on an unreasonable determination
that the three-year delay resulting from the trial court’s refusal to allow Mr.
9

Gough to represent himself was attributable to Mr. Gough, for speedy trial
purposes. Because Mr. Gough had never been found to be competent to
waive his right to counsel, and had never been found to have forfeited his
right to represent himself, and had repeatedly made unequivocal requests,
and filed motions, seeking to do so, the facts supporting Mr. Gough’s
►

argument on this point were undisputed.
The district court, however, interpreted the requirement of a prior
Supreme Court precedent, contained only in subsection (d)(1), to apply also
to subsection (d)(2), where it does not appear, without explanation. By
declining to issue a certificate of appealability, the court of appeals appears
to have endorsed the district court’s misinterpretation of §2254.
This court should grant the petition to address the question of
whether the requirement of a Supreme Court precedent applies to
subsection (d)(2) of §2254, as well as subsection (d)(1), despite the clear
language of the statute to the contrary.
CONCLUSION
For the foregoing reasons, the petition for writ of certiorari should be
granted.
/
Respectfully submitted,
l&u* d..
RAY A. GOUGH0R60046
BMRCC l-B-51
251 North Illinois Highway 37
Ina,IL 62846

10

